              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Disposal of the Rocky Flats
Environmental Technology Site's
Low-Level Mixed Waste




DOE/IG-0612                                 July 2003
                               Department of Energy
                                  Washington, DC 20585
                                  July 8, 2003




MEMORANDUM FOR THE SECRETWY

FROM:
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Disposal of the Rocky
                           Flats Environmental Technology Site's Low-Level Mixed
                           Waste"

BACKGROUND

In February 2000, the Department of Energy entered into a contract with Kaiser-Hill
Company, LLC to close the Rocky Flats Environmental Technology Site by December
15,2006. Under the terms of the contract, Kaiser-Hill is responsible for treating and
packaging low-level mixed waste (LLMW) greater than 10 nanocuries per gram, and the
Department is responsible for providing a disposal site for the waste. Kaiser-Hill has
about 1,300 cubic meters of this type of waste in its inventory and estimates that it could
generate an additional 1,500 cubic meters prior to site closure. The waste consists mainly
of sludge, metals, combustibles (e.g., rags, clothmg, and wood), lead solids, and lead
gloves. Kaiser-Hill anticipates a need for a disposal site by August 2003.

The objective of this audit was to determine whether the Department is prepared to
dispose of the Rocky Flats LLMW.

RESULTS OF AUDIT

We found that a disposal site may not be available in time to meet Rocky Flats needs.
The Department's preferred disposal sites, the Nevada Test Site (NTS) and the Hanford
Site (located in Washington State), are not currently accepting LLMW fi-om other
Department sites for disposal, and NTS is not expected to receive LLMW before January
2004. Further, a date by which Hanford will receive such waste is uncertain. If Hanford
cannot accept Rocky Flats' waste by August 2003, the Department will have to pursue
other temporary storage or final disposal options with both cost and schedule impacts to
the accelerated closure of Rocky Flats. The Department has considered options with
significant cost implications - as little as $4 million to as much as $320 million more than
direct disposal at Hanford.

The 2000 agreement with the State of Washington provides that the Department, under
certain circumstances and in consultation with the State, may be able to dispose of
LLMW at Hanford prior to full completion of an environmental impact statement. We
concluded that, if the environmental impact statement is delayed beyond August of 2003,


                                @     Printed with soy ink on recycled paper
                                            2


it would be prudent for the Department to pursue this option with the State of
Washington. If successful, this may well eliminate the need to pursue more costly
disposal alternatives. The report includes recommendations to initiate such action.

Based on its 2002 Top to Bottom Review, the Office of Environmental Management has
adopted an accelerated, risk-based approach to cleanup activities. We believe our
recommendation is consistent with this initiative.

MANAGEMENT REACTION

Management generally concurred with the audit finding and recommendations. While
management stated that the path forward would be to complete the environmental impact
statement, they agreed to pursue our recommendations if it was not complete by
August 2003.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Rocky Flats Field Office
    Manager, Richland Operations Office
                                                                                                                .-




DISPOSAL OF THE ROCKY FLATS ENVIRONMENTAL
TECHNOLOGY SITE'S LOW-LEVEL MIXED WASTE

TABLE OF
CONTENTS



               Disposal Facility

               Details of Finding.......................................................................   1

               Recommendations and Comments ..........................................                     .4


               Appendices

               1. Prior Audit Reports................................................................      5

               2. Objective, Scope, and Methodology .....................................                  6

               3. Management Comments.......................................................               7
DISPOSAL FACILITY

Disposal Capabilities   The Department identified the Nevada Test Site (NTS) and the Hanford
                        Site as preferred disposal facilities for low-level mixed waste (LLMW)
                        in its Record of Decision for the Final Waste Management
                        Programmatic Environmental Impact Statement, issued in February
                        2000. In April 2001, the Rocky Flats Environmental Technology Site's
                        (Rocky Flats) management contractor, Kaiser - Hill Company, LLC,
                        (Kaiser-Hill) notified the Department that it was concerned that neither
                        NTS nor the Hanford Site had begun accepting LLMW from other
                        Department facilities.

                        As of June 2003, NTS and the Hanford Site were still not accepting
                        LLMW from other Department sites. Currently, the Department is
                        working with the State of Nevada to obtain permission to dispose of
                        LLMW at NTS. However, an official from the Department's Nevada
                        Operations Office stated that NTS would not be available for disposal
                        until January 2004 at the earliest, and that even that date was optimistic
                        given the State of Nevada's ongoing concerns about waste disposal at
                        Yucca Mountain. Therefore, the Department does not consider NTS a
                        viable option for disposal of Rocky Flats' LLMW.

                        Based on the situation at NTS, the Hanford Site may be the
                        Department's best option for receiving Rocky Flats' LLMW. Consistent
                        with that assumption, Rocky Flats has been treating its LLMW to the
                        Hanford Site's waste acceptance criteria. Also, the Hanford Site has
                        already reviewed and approved some of Rocky Flats' waste streams for
                        shipping and is willing to accept Rocky Flats' waste. Additionally, the
                        Hanford Site has been disposing of its own LLMW, under interim
                        disposal status, in an onsite trench that is suitable for disposal of Rocky
                        Flats' waste. Officials from the Department's Richland Operations
                        Office have stated that interim disposal status would also allow disposal
                        of Rocky Flats' waste at the Hanford Site. However, because of the
                        status of the regulatory process, the Hanford Site's ability to receive
                        Rocky Flats' LLMW before August 2003 remains in question.

Obstacles to Disposal   In this regard, the Department completed its complex-wide waste
                        management impact statement, which included a discussion of the
                        disposal of LLMW at Hanford, in February 2000. A second, more
                        site-specific evaluation, called the Hanford Site Solid Waste Program
                        Environmental Impact Statement (Hanford EIS), began in 1997 but is
                        not yet complete. In December 2000, the Department entered into an
                        agreement with the State of Washington (State) indicating that it would
                        complete the Hanford EIS before accepting LLMW at the site.



Page 1                                                                        Details of Finding
                    Department officials initially believed that timing would not present a
                    problem because they expected the Hanford EIS to be completed well
                    before the time Rocky Flats would need a disposal site. However, the
                    Hanford EIS was taking longer than estimated, and Department officials
                    no longer expected the accompanying record of decision to be issued
                    before August 2003. Moreover, some officials we spoke to were
                    concerned that even after completion of the Hanford EIS, the record of
                    decision may not be implemented in the foreseeable future due to
                    potential legal challenges.

                    During the audit, we noted that the December 2000 agreement included
                    language that would allow the Department, in consultation with the
                    State, to dispose of waste at Hanford prior to completion of the Hanford
                    EIS, should circumstances require. At the time of our audit, the
                    Department had not pursued this aspect of the agreement. Department
                    officials stated that they were discussing a number of waste disposal
                    issues with the State, but gave no indication that they had pressed for an
                    agreement to allow disposal of Rocky Flats' LLMW at Hanford. To the
                    contrary, the Department expressed concern that attempting to dispose of
                    Rocky Flats' waste at Hanford might jeopardize the availability of the
                    site for disposal of waste from other Department facilities because the
                    State might decide to impose more stringent waste disposal
                    requirements.

                    In response to our audit, the Department confirmed its intent to complete
                    the Hanford EIS before pursuing other actions. While we agree that this
                    path is acceptable for the near term, delays in implementation beyond
                    the summer of 2003 could have long-term cost and schedule impacts on
                    the accelerated closure of Rocky Flats.

Potential Actions   Under the current planning scenario, Kaiser-Hill will dispose of its
                    LLMW at the Hanford Site at a cost of $24 million. If Hanford is not
                    available to receive the waste by August 2003, the Department may have
                    to pursue other, more costly alternatives for temporary storage or final
                    disposal. In January 2003, the Department identified three potential
                    actions to resolve this challenge: (1) return treated waste to Rocky Flats
                    for onsite storage; (2) ship treated waste to an offsite storage facility; or,
                    (3) blend the waste up to transuranic waste for final disposal at the
                    Department's Waste Isolation Pilot Plant (WIPP). In addition, any
                    delays in disposal of LLMW could delay the Department's plans for
                    accelerated closure of Rocky Flats.




Page 2                                                                       Details of Finding
                                                                                     .-




                                Return for Onsite Storage

         Kaiser-Hill plans to treat its LLMW at several commercial facilities,
         including one near the Hanford Site in Washington. Kaiser-Hill is
         currently sending some LLMW to the Washington facility for
         treatment; however, storage capabilities are limited. Therefore, if
         Hanford does not begin receiving waste in the near future, the treated
         waste may have to be shipped from the commercial facility back to
         Rocky Flats for temporary storage, then shipped again to the final
         disposal site. According to a Department official, treated waste
         returned to Rocky Flats will be bulkier and require more storage space
         than before it was treated. Thus, while Rocky Flats has storage
         facilities available for mixed waste, the Department would have to
         retain them longer than currently planned for in the site closure
         schedule and at higher cost than in the current closure baseline.
         According to Kaiser-Hill and the Department's Rocky Flats Field
         Office, temporary onsite storage would cost the Department $4 million
         per year, plus about $900,000 in extra shipping costs above the baseline
         cost for direct disposal. In addition, Rocky Flats would have to obtain a
         long-term onsite storage permit from the State of Colorado.
         Furthermore, prolonged onsite storage could also raise stakeholder
         concerns about the timeliness and completeness of site closure.

                                Temporary Offsite Storage

         Rocky Flats also identified a commercial entity as a potential temporary
         offsite storage facility. However, storage at that facility was estimated
         to cost an additional $36 million per year above the baseline cost for
         direct disposal, plus up to $1.5 million for shipping the treated waste
         from the treatment facility in Washington to the temporary storage
         facility, then to the final disposal site.

                                       Blending Up

         Also, the Department has considered blending the LLMW up to the
         level of transuranic waste and disposing of the waste at WPP.
         However, this could be an extremely expensive alternative. Based on a
         recent analysis performed by Kaiser-Hill and the Rocky Flats Field
         Office, this alternative could cost the Department an additional
         $320 million.




Page 3                                                        Details of Finding
                                           Accelerated Closure Delays

                      Finally, the lack of a disposal site could delay accelerated closure of
                      the site. The Office of Environmental Management plans to
                      accelerate the closure of Rocky Flats to significantly reduce the
                      landlord costs associated with keeping the site open. For example,
                      Kaiser-Hill estimates that closing the site one year early would save
                      the Department over $400 million. Therefore, any delay to Kaiser-
                      Hill's accelerated cleanup schedule could result in the Department
                      not realizing substantial cost savings from early closure.


RECOMMENDATIONS       We recommend that the Assistant Secretary for Environmental
                      Management:

                          1. Aggressively pursue negotiations with the State of
                             Washington to allow for timely disposal of Rocky Flats'
                             LLMW at the Hanford Site if implementation of the Hanford
                             EIS record of decision is delayed beyond August 2003; and,

                          2. If negotiations are unsuccessful, identify and pursue the
                             most cost-effective LLMW storage and disposal alternatives
                             to ensure timely closure of Rocky Flats.


MANAGEMENT REACTION   The Office of Environmental Management stated that it is in general
                      agreement with the report's finding and recommendations. In its
                      written response, management stated that its path forward is to
                      complete the Hanford EIS in the summer of 2003. Other storage and
                      disposal alternatives will be pursued as needed, but only secondarily
                      to the Hanford EIS. In subsequent discussions, management agreed
                      to pursue other alternatives identified in this report if the Hanford
                      EIS is not completed by August 2003. Management's verbatim
                      comments can be found in Appendix 3 of this report.


AUDITOR COMMENTS      We consider management's comments responsive to the intent of the
                      report's recommendations.




Page 4                                               Recommendations and Comments
Appendix 1

                                        PRIOR AUDIT REPORTS



          Progress Made at Rocky Flats, But Cleanup by 2006 Unlikely and Costs May Increase
          (GAO-01-284, February 2001). This report concluded that the Department was working
          towards implementing a plan to identify such Government-furnished services as
          identifying receiver sites for orphan wastes. This includes identifying the regulatory
          requirements that need to be satisfied and the timefi-ames for completing these actions.

     0   Low-Level Radioactive Wastes: Department of Energy Has Opportunity to Reduce
         Disposal Costs (GAOh2CED-00-64, April 2000). The audit found that although the
         Department had adopted a new policy in February 2000 establishing the Nevada Test Site
         (NTS) and the Hanford Site as disposal facilities for mixed wastes, there were numerous
         roadblocks to fully implementing this policy. For example, the Department might need to
         obtain environmental permits from host states to dispose of out-of-state mixed wastes.
         Rocky Flats officials stated that a disposal facility was needed by 2003 to meet the closure
         schedule. However, Department and Rocky Flats officials did not anticipate that NTS or
         the Hanford Site would be available in time to meet Rocky Flats' 2006 closure schedule.

     0   Disposal of Low-Level and Low-Level Mixed Waste (DOEIIG-0426, September 1998).
         The audit revealed that the Department incurred $5.3 million in unnecessary disposal costs
         for low-level waste between Fiscal Years 1993 and 1996 and incurred $27.1 million to
         build low-level waste disposal facilities at the Savannah River Site and Oak Ridge
         Reservation, even though off-site disposal would have been more cost-effective. Also, the
         Hanford Site and NTS could dispose of their own mixed waste, but could not accept
         mixed waste generated at other sites. Therefore, the Department had not established a
         Departmentwide mixed waste disposal site.




Page 5                                                                                Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether the Department is
              prepared to dispose of the Rocky Flats LLMW greater than 10
              nanocuries per gram.


SCOPE         The audit was performed at Rocky Flats near Golden, Colorado,
              between November 2002 and June 2003. We also made a site visit to
              the Department's Richland Operations Office in Richland, Washington.
              The audit covered the Department's efforts to prepare for the disposal of
              Rocky Flats' LLMW greater than 10 nanocuries per gram between
              February 2000 and June 2003. The audit identified a material internal
              control weakness that Department management should consider when
              preparing its yearend assurance memorandum on internal controls.


METHODOLOGY   To accomplish our objective, we:

                  0   Interviewed Kaiser-Hill Company, LLC employees and
                      Department officials located at Rocky Flats, the Hanford Site,
                      and Department Headquarters;

                  0   Reviewed pertinent environmental impact statements and
                      regulatory agreements;

                      Reviewed the Department's performance measures related to
                      waste disposal in accordance with the Government Performance
                      and Results Act of 1993; and,

                      Evaluated the Rocky Flats Closure Contract, Kaiser-Hill
                      Government Furnished Services and Items Request Reports,
                      correspondence between Kaiser-Hill and the Department, and
                      other Kaiser-Hill and Department documents related to
                      treatment and disposal of Rocky Flats' LLMW.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objective.
              Management waived an exit conference.



Page 6                                         Objective, Scope, and Methodology
Amendix 3


         United States Government                                           Department of Energy

         memorandum
           DA-f   May 30, 2003
                  E M - 3 3 (Xed I-arson. 301-903-934?)

                  Office 01' itispector General ,Memorandum on Draft Audit Report on '-1)ispod of'the
                  Rocky Flats En\ ironmental Yechnolog> Site's Low-Level Mivccl Waste"
                  Frcderick I). Ihgyett, Deputy Assistant Inspector General for Audit Set-~iccs
                  Office of Inspector General. IG-32.

                  The purpose ofthis memor:undum I S to respond lo your letter dated May 9. 2003, on
                  the Draft Audit Report on "Dispos:il of the Rocky Flats Environmental 'I'cchnology
                  Site's I,ow-I~evelMixed Waste." I a m providing the Rocky Flats Field Office
                  comments on the subject audit.

                  1 a m i n general agreement uith the Draft Report's observations. The path fonwird i s
                  t o complete and issue the E Ianford Site Solid Waste Program Environmental irnpact
                  Statement (Hanford EIS) later this summer. Completion of the Iianford I-'IS will
                  ameliorate obstacles to disposal of the Iiocky Flats En\ Ironmental Technolog) Sire's
                  low--ievelmixed waste M ithout impacting the Rocky klnts closure The other pathb
                  delineated in the iiecommendations section of the Draft Kcport will also be pursued
                  :IS needed, hut on11 secondarily to the Hanford 1-1s.

                  1f)ou have further questions, please call me at (202) 586-7709 or Mark \I'f:rci,
                  I)eput> Assistant Secretary for Site Closure, at (202) 586-63.3 1.




                                                    ,   ,/
                                                    "'       Assistant Secretary for
                                                              Env ironmental Mmaycmcnt

                  Attachment




Page 7                                                                              Management Comments
--




                                                                                   IG Report No.: DOE/IG-0612

                                         CUSTOMER RESPONSE FORM


     The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
     wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
     you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
     enhance the effectiveness of hture reports. Please include answers to the following questions if they are
     applicable to you:

     1. What additional background information about the selection, scheduling, scope, or procedures of the
        audit would have been helpful to the reader in understanding this report?

     2. What additional information related to findings and recommendations could have been included in this
        report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall message more
        clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
        report which would have been helpful?

     Please include your name and telephone number so that we may contact you should we have any questions
     about your comments.

     Name                                          Date

     Telephone                                      Organization

     When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
     0948, or you may mail it to:

                                          Office of Inspector General (IG-1)
                                                Department of Energy
                                               Washington, DC 20585

                                            ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
     please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer fnendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
